No.

3fn tfje Supreme Court of tfje fHmteb States
♦♦

State of Michigan, Petitioner
V.

William Shoulders
On Petition for a Writ of Certiorari
to the Michigan Supreme Court

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATION
Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the Petition for Writ
of Certiorari of the State of Michigan contains 4,162 words, excluding the parts of
the document exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 29, 2020.

David A. McCreedy
Assistant Prosecuting Attorney
Counsel of Record
1441 St. Antoine, Room 1116
Detroit, Michigan 48226
dmccreed@waynecounty.com
(313) 224-3836

\

